________

NO.

IN THE SUPREME COURT OF THE UNITED STATES

MARK PHILLIP CARTER,
Petitioner,

-vs.

-

UNITED STATES OF AMERICA,
Respondent.

Motion For Leave to Proceed In Forma Pauperis

Angela L. Campbell
DICKEY, CAMPBELL & SAHAG LAW FIRM, PLC.
301 E. Walnut Street, Ste. 1

Des Moines, Iowa 50309
Phone: (515) 288-5008
Fax: (515) 288-5010
Email: angelaiowajustice.com
ATTORNEY FOR PETITIONER

Pursuant to Rule 39 ofthe Rules of this Court, the petitioner, Mark Carter, asks leave to file
the attached Petition for Writ of Certiorari, without prepayment of costs, and to proceed informa
pauperis.

The Petitioner is currently represented by counsel appointed under the Criminal Justice Act

Guidelines, pursuant to Title 18, United States Code ยง 3 006(a) (the Criminal Justice Act) for his
appeal to the Eighth Circuit Court of Appeals, and was similarly represented by counsel appointed
under the Criminal Justice Act at the trial phase of his case. Attached to this motion is the order
allowing Petitioner to proceed with his Eighth Circuit appeal utilizing appointed counsel.

Wherefore, Petitioner requests the Court grant his Motion For Leave to Proceed In Forma
Pauperis.

RESPECTFULLY SUBMITTED,

AL.e1'

DICKEY, CAMPBELL & SAHAG LAW FIRM, PLC.
301 E. Walnut Street, Ste. 1
Des Moines, Iowa 50309
Phone: (515) 288-5008
Fax: (515) 288-5010
Email: angelaiowajustice.com

ATTORNEY FOR PETITIONER

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-1153

United States of America
Appellee
V.

Mark Phillip Carter, II
Appellant

Appeal from U.S. District Court for the Southern District of Iowa Des Moines
(4:1 8 -cr-00053 -JAJ-2)
-

SI 1IJI*1
Attorney, Angela L. Campbell is hereby appointed to represent appellant in this appeal

under the Criminal Justice Act. Information regarding the CJA appointment and vouchering

process in eVoucher will be emailed to counsel shortly.

January 23, 2019

Order Entered under Rule 27A(a):
Clerk, U.S. Court of Appeals, Eighth Circuit.

/s/ Michael E. Gans

Appellate Case: 19-1153

Page: 1

Date Filed: 01/23/2019 Entry ID: 4748557

